APPENDIX A

, *

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Tel. (513)564-7000
www.ca6.uscourts.gov

Filed: March 08, 2021

Mr. James P. Allen Sr.
Law Office
400 Monroe Street
Suite 620
Detroit, MI 48226

Mr. Jacob S. Ghannam Sr.
Wayne County Corporation Counsel
400 Monroe
Suite 660
Detroit, MI 48226

Mr. Michael T. Brown
Kilpatrick & Associates
903 N. Opdyke Road
Suite C
Auburn Hills, MI 48326

Mr. Richardo I. Kilpatrick
Kilpatrick & Associates
903 N. Opdyke Road
Suite C
Auburn Hills, MI 48326

Mr. Gregory G. Dean
Law Office
129 N. Lafayette Street
South Lyon, MI 48178

Ms. Laura Marie Scott
2968 Hanley
Hamtramck, MI 48212
Mr. James M. Surowiec
Law Office
400 Monroe Street
Suite 620
Detroit, MI 48226
Re: Case No. 20-1773, Laura Scott v. Nandan Patel, et al
Originating Case No.: 2:19-cv-12676

Dear Counsel and Ms. Scott,
The Court issued the enclosed Order today in this case.
Sincerely yours,
s/Sharday S. Swain
Case Manager
Direct Dial No. 513-564-7027
cc: Ms. Kinikia D. Essix
Enclosure

\

No. 20-1773

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

LAURA MARIE SCOTT,
Plaintiff-Appellant,
v.
NANDAN PATEL, et al.,
Defendants-Appellees.

)
)
)
)
)
)
)
)
)
)

Mar 08, 2021
DEBORAH S. HUNT, Clerk

ORDER

Before: BUSH, Circuit Judge.

Laura Marie Scott, a pro se Michigan plaintiff, appeals the district court’s judgment
dismissing her 42 IJ.S.C. S 1983 civil rights complaint for lack of subject-matter jurisdiction. Scott
moves the court to proceed in forma pauperis on appeal.
This court may grant a motion to proceed in forma pauperis if it determines that an appeal
would in fact be taken in good faith and the movant is indigent. See Owens v. Keeling, 461 F.3d
763.776 (6th Cir. 2006). An appeal is not in good faith if it is frivolous and thus “lacks an arguable
basis either in law or in fact.” Neitzke v. Williams, 490 IJ.S. 319. 325 (1989).
An appeal in this case would be frivolous because Scott’s federal due process claim is
barred by the Tax Injunction Act, 28 U.S.C. S 1341. inasmuch as the State of Michigan provides
“a plain, speedy and efficient” remedy for her claim that the defendants violated her constitutional
rights during state tax-foreclosure proceedings. See Pegross v. Oakland Cnty. Treasurer, 592 F.
App’x 380, 384—85 (6th Cir. 2014); cf. In rePetition by Treasurer of Wayne Cnty. for Foreclosure,
732 N.W.2d 458. 462-63 (Mich. 2007). And to the extent that Scott alleged that the foreclosure
action violated the automatic stay entered by a bankruptcy court, only the bankruptcy court can
address that claim. See Chao v. Hosp. Staffing Servs., Inc., 270 F.3d 374. 383 (6th Cir. 2001).
Finally, there is no non-frivolous argument that the district court abused its discretion in declining

No. 20-1773
-2to exercise supplemental jurisdiction over Scott’s state-law claims after it dismissed her federal
claim. See Hankins v. Gap, Inc., 84 F.3d 797. 802-03 (6th Cir. 1996).
Accordingly, the court DENIES Scott’s motion to proceed in forma pauperis. Unless Scott
pays the $505 filing fee to the district court within thirty days of the entry of this order, this appeal
will be dismissed for want of prosecution.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Case: 20-1773

Document: 24-2

Filed: 04/15/2021

Page: 1

Case No. 20-1773
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
ORDER
LAURA MARIE SCOTT
Plaintiff - Appellant
v.
NANDAN PATEL; ENTERPRISING REAL ESTATE, LLC; WAYNE COUNTY, MI;
WAYNE COUNTY LAND BANK CORPORATION; ERIC SABREE, Wayne County
Treasurer; CITY OF HAMTRAMCK, MI; KATHLEEN ANGERER, City Manager; CYNTHIA
M. YUN; RICHARDO I. KILPATRICK
Defendants - Appellees

Appellant having previously been advised that failure to satisfy certain specified
obligations would result in dismissal of the case for want of prosecution and it appearing that the
appellant has failed to satisfy the following obligation(s):
The proper fee was not paid by April 07, 2021.
It is therefore ORDERED that this cause be, and it hereby is, dismissed for want of
prosecution.
ENTERED PURSUANT TO RULE 45(a),
RULES OF THE SIXTH CIRCUIT
Deborah S. Hunt, Clerk

Issued: April 15,2021

■

APPENDIX B

.■

Case 2:19-cv-12676-MOB-MJH ECF No. 101 filed 06/29/20

PagelD.1745

Page 1 of 1

UNITED STATES DISTRICTXOURTEASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION

LAURA M. SCOTT,
Plaintiff,
Case No. 19-12676

v.

Hon. Marianne O. Battani
NANDAN PATEL, etal.,
Defendants.
/
~*

JUDGMENT OF DISMISSAL
In accordance with the Court’s order overruling Plaintiffs objections and adopting
)

the Magistrate Judge’s January 9, 2020 report and recommendation,
IT IS HEREBY ORDERED that the federal claims asserted in Plaintiffs complaint
are DISMISSED WITHOUT PREJUDICE for lack of subject matter jurisdiction. In light of
the dismissal of Plaintiffs federal claims, IT IS FURTHER ORDERED that Plaintiffs
remaining state-law claims are likewise DISMISSED WITHOUT PREJUDICE, as the
Court elects not to retain jurisdiction over these claims.
IT IS SO ORDERED.

Date: June 29, 2020

)

mz.' •

C

s/Marianne O. Battani
MARIANNE O. BATTANI
United States District Judge

APPENDIX C

(ORDER LIST: 589 U.S.)

THURSDAY, MARCH 19, 2020
ORDER
In light of the ongoing public health concerns relating to COVID-19, the
following shall apply to cases prior to a ruling on a petition for a writ of certiorari:
IT IS ORDERED that the deadline to file any petition for a writ of certiorari
due on or after the date of this order is extended to 150 days from the date of the
lower court judgment, order denying discretionary review, or order denying a timely
petition for rehearing. See Rules 13.1 and 13.3.
IT IS FURTHER ORDERED that motions for extensions of time pursuant to
Rule 30.4 will ordinarily be granted by the Clerk as a matter of course if the grounds
for the application are difficulties relating to COVID-19 and if the length of the
extension requested is reasonable under the circumstances. Such motions should
indicate whether the opposing party has an objection.
IT IS FURTHER ORDERED that, notwithstanding Rules 15.5 and 15.6, the
Clerk will entertain motions to delay distribution of a petition for writ of certiorari
where the grounds for the motion are that the petitioner needs additional time to file
a reply due to difficulties relating to COVID-19. Such motions will ordinarily be
granted by the Clerk as a matter of course if the length of the extension requested is
reasonable under the circumstances and if the motion is actually received by the
Clerk at least two days prior to the relevant distribution date. Such motions should
indicate whether the opposing party has an objection.

IT IS FURTHER ORDERED that these modifications to the Court’s Rules
and practices do not apply to cases in which certiorari has been granted or a direct
appeal or original action has been set for argument.
These modifications will remain in effect until further order of the Court.

APPENDIX D

(ORDER LIST: 594 U.S.)
MONDAY, JULY 19, 2021

ORDER
IT IS ORDERED that the Court’s orders of March 19, 2020 and April 15, 2020
relating to COVID-19 are rescinded, subject to the clarifications set forth below.
IT IS FURTHER ORDERED that, in any case in which the relevant lower court
judgment, order denying discretionary review, or order denying a timely petition for
rehearing was issued prior to July 19, 2021, the deadline to file a petition for a writ of
certiorari remains extended to 150 days from the date of that judgment or order. In any
case in which the relevant lower court judgment, order denying discretionary review, or
order denying a timely petition for rehearing was issued on or after July 19, 2021, the
deadline to file a petition for a writ of certiorari is as provided by Rule 13.
IT IS FURTHER ORDERED that the requirement of Rule 33.1 that 40 copies of
documents be submitted in booklet format will go back into effect as to covered documents
filed on or after September 1, 2021. For submissions pursuant to Rule 33.2, the
requirement of Rule 39 that an original and 10 copies be submitted, where applicable, will
also go back into effect as to covered documents filed on or after September 1, 2021. The
authorization to file a single copy of certain documents on 8% x 11 inch paper, as set forth
in the Court’s April 15, 2020 order, will remain in effect only as to documents filed before
September 1, 2021.
IT IS FURTHER ORDERED that the following types of documents should not be
filed in paper form if they are submitted through the Court’s electronic filing system:
(1) motions for an extension of time under Rule 30.4; (2) waivers of the right to respond to a

petition under Rule 15.5; and (3) blanket consents to the filing of amicus briefs under
Rules 37.2(a) and 37.3(a). Notwithstanding Rule 34.6 and paragraph 9 of the Guidelines for
the Submission of Documents to the Supreme Court’s Electronic Filing System, these
enumerated filings should be filed electronically in cases governed by Rule 34.6, although
other types of documents in those cases should be filed in paper form only.

2

APPENDIX E

I?"

■53

(Slip Opinion)

OCTOBER TERM, 2018

1

Syllabus
NOTE: Where it is feasible, a syllabus (headnote) will be released, as is
being done in connection with this case,'"'at the time the opinion is issued.
The syllabus constitutes no part of the opinion of the Court but has been
prepared by the Reporter of Decisions for the convenience of the reader.
See United Statesv. Detroit Timber & Lumber Co., 200 U. S. 321, 337.

SUPREME COURT OF THE UNITED STATES
Syllabus

KNICK v. TOWNSHIP OF SCOTT, PENNSYLVANIA, ET
AL.
CERTIORARI TO THE UNITED STATES COURT OF APPEALS FOR
THE THIRD CIRCUIT
No. 17—647. Argued October 3, 2018—Reargued January 16, 2019—
Decided June 21, 2019
The Township of Scott, Pennsylvania, passed an ordinance requiring
that “ [ajll cemeteries ... be kept Open and accessible to the general
public during daylight hours.” Petitioner Rose Mary Knick, whose
90-acre rural property has a small family graveyard, was notified
that she was violating the ordinance. Knick sought declaratory and
injunctive relief in state court on the ground that the ordinance ef­
fected a taking of her property, but she did not bring an inverse com
demnation action under state law seeking compensation. The Town­
ship responded by withdrawing the violation notice and staying
enforcement of the ordinance. Without an ongoing enforcement ac­
tion, the court held, Knick could not demonstrate the irreparable
harm necessary for equitable relief, so it declined to rule on her re­
quest. Knick then filed an action in Federal District Court under 42
U. S. C. §1983, alleging that the ordinance violated the Takings
Clause of the Fifth Amendment. The District Court dismissed her
claim under Williamson County Regional Planning Comm’n v. Ham­
ilton Bank of Johnson City, 473 U. S. 172, which held that property
owners must seek just compensation under state law in state court
before bringing a federal takings claim under §1983- The Third Cir­
cuit affirmed.
Held.:
1. A government violates the Takings Clause when it takes proper­
ty without compensation, and a property owner may bring a Fifth
Amendment claim under §1983 at that time. Pp. 5—20.
(a) In Williamson County, the Court held that, as relevant here,
a property developer’s federal takings claim was “premature” because

APPENDIX F

o_a&- uJ(vS Y)&cr CCifb**^ ,V>
|I

Scott v. City of Hamtramck Treasurer (In re Scott), Case No.: 16-56880 | Casetext Search + Citator

6/9/2021

Help

Sign In

Sign Up

Search all cases and statutes...
Opinion

Case details

Hon. Mark A. Randon
Chapter 7
OPINION AND ORDER GRANTING DEFENDANTS' MOTIONS TO
DISMISS
(DKT. NOS. 18 AND 20)

I. INTRODUCTION
Plaintiff has unpaid water bills and property taxes dating back to 2013.
As a result of the delinquent taxes, which include the unpaid water bills,
Plaintiffs home was forfeited to the Wayne County Treasurer, later
foreclosed (passing title to the Treasurer), and is scheduled to be sold at
a public auction in September or October 2017. Plaintiff filed this
adversary proceeding as a last-ditch effort to unwind the
forfeiture/foreclosure and save her home from auction. *2
Wayne County and the State of Michigan's motions to dismiss are
pending.1 The Court heard argument on August 7,2017. Plaintiff,
essentially, makes two arguments: (1) her water i Download
fraudulent or erroneous which-when added to tUr Ltuv um iuuviC me

pi Ti

a
i

Detroit, Michigan

2

March 22, 2017

3

Wednesday @ 12:54 p.m.

4
5

THE COURT: Okay, this is In re the Matter

6

of the Wayne County Treasurer Foreclosure, Case

7

Number 16-007539-CH.

8

Appearance.

9

* * *

10

)

fe,*'

MS. YUN:

11

your Honor, is on page 2, Lauren Scott. Your Honor,

12

Ms. Scott has filed an objection with respect to her

13

property on Hanley. Ms. Scott has indicated that she

14

is involved in a bankruptcy proceeding which I have

15

confirmed.

16

€

And I advised Ms. Scott this morning that

17

this matter would be removed from today's docket due

18

to the fact that she's involved in a Chapter 7

19

Bankruptcy and the property is included in the

20

inventory.

21

Ms. Scott wants to address the Court.

22

THE COURT: All right, your name is Laurie

23

J

The next objection on my list,

Scott.

24

MS. SCOTT: Yes.

25

THE COURT: L-a-u-r-i-e S-c-o-t-t.

